No. 20-112

 

IN THE
Supreme Court of the United States

SHERRY HERNANDEZ,
Petitioner

Vv.

PNMAC MORTGAGE OPPORTUNITY
FUND INVESTORS, LLC; et ai.,
Respondents

On Petition for Writ of Certiorari
to the California Court of Appeal,
Second Appellate District, Division Five

REPLY BRIEF

Certificate of Compliance

As required by Supreme Court Rule 33.1(h), I certify that the document contains 2,994
words, excluding the parts of the document that are exempted by Supreme Court Rule

I declare under penalty of perjury that the foregoing is true and correct.
Executed on October 16, 2020.

{
)

honda Hernandez
